<html>
<title> - FAMILY-FRIENDLY LEAVE POLICIES: IMPROVING HOW WORKERS BALANCE HOME AND FAMILY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



FAMILY-FRIENDLY LEAVE POLICIES: IMPROVING HOW WORKERS BALANCE HOME AND 
                                 FAMILY

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN HAUPPAUGE, NY, JUNE 9, 2008

                               __________

                           Serial No. 110-94

                               __________

      Printed for the use of the Committee on Education and Labor


<GRAPHIC NOT AVAILABLE IN TIFF FORMAT>

                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                          -------





                     U.S. GOVERNMENT PRINTING OFFICE

42-727 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001












                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Donald M. Payne, New Jersey          Joe Wilson, South Carolina,
Timothy H. Bishop, New York            Ranking Minority Member
Carol Shea-Porter, New Hampshire     Tom Price, Georgia
Phil Hare, Illinois                  John Kline, Minnesota

















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 9, 2008.....................................     1

Statement of Members:
    Bishop, Hon. Timothy H., a Representative in Congress from 
      the State of New York......................................     3
        Prepared statement of....................................     6
        Letter from Scott M. Stringer, president, Borough of 
          Manhattan..............................................    25
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Blekas, George, resident of Manorville, NY...................    13
        Prepared statement of....................................    15
    Condos, Julienne, director of program development for 
      rehabilitation, St. Charles Hospital.......................    11
        Prepared statement of....................................    12
    Dolan, Donna, chair, New York State Paid Family Leave 
      Coalition..................................................     8
        Prepared statement of....................................     9
    Wankoff, Barbara, director of workplace solutions, KPMG......    16
        Prepared statement of....................................    18



















 
                    FAMILY-FRIENDLY LEAVE POLICIES:
                         IMPROVING HOW WORKERS
                        BALANCE HOME AND FAMILY

                              ----------                              


                          Monday, June 9, 2008

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:30 a.m., at 
the William H. Rogers Legislative Building, 725 Veterans 
Memorial Highway, Hauppauge, New York, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey and Bishop.
    Staff present: Lynn Dondis, Senior Policy Advisor, 
Subcommittee on Workforce Protections; Sara Lonardo, Junior 
Legislative Associate for Labor; Rob Gregg, Minority Senior 
Legislative Assistant.
    Chairwoman Woolsey. I want to thank everyone for coming 
here to Hauppauge, New York, for the field hearing on balancing 
work and family.
    I especially want to thank Representative Bishop for 
hosting the Workforce Protections Subcommittee in this 
wonderful location.
    And thanks to his staff and the crew here at the William H. 
Rogers Legislature Building for all of your work in preparing 
for the hearing.
    In Congress, Mr. Bishop has been working diligently on 
behalf of working families. Just recently, the House passed his 
bill, H.R. 2744, which will clarify that airline attendants and 
pilots are covered by The Family and Medical Leave Act. So you 
see, FMLA can be improved.
    Congressman Bishop will no doubt elaborate on what this 
legislation does, anyway we hope he does, in his opening 
statement.
    The Subcommittee on Workforce Protections and our members 
are dedicated to finding solutions so that workers in this 
country can better balance work and family.
    During the Congress, so far, the subcommittee has held 
three hearings on balancing work and family. Today we will 
focus on the issue of paid leave.
    Balancing work and family is a challenge for most of us, 
and it is important that we, as a nation, address this issue.
    As the cost of living increases and wages remain stagnant, 
Americans work longer hours and often commute longer distances 
to be able to pay the bills.
    If children have two parents, which is not always the case, 
both parents are probably in the workforce, so our job is to 
help those parents bridge both of their jobs: one, their 
employment, and two, their family.
    Americans dream of economic independence, a secure future, 
and a good life for their children. However, for most 
Americans, this dream is slipping away. Gasoline costs are sky-
high and other household costs are going up rapidly as well.
    I was a human resource professional for 20 years, from the 
1970s until the 1990s, a working mother as well. And now I 
watch my children balance work and their families. It is not 
easy! No worker should be put in a position where choosing 
between the job and the family is necessary. One policy that 
helps to relieve such stress is ``paid family and medical 
leave.''
    Unfortunately, there is no existing Federal policy on paid 
leave, and only a handful of States, including my home State of 
California, as well as New York, New Jersey, Puerto Rico and 
now Washington State, provide paid leave.
    It is true that there are some wonderful companies--such as 
KPMG, our witness here today--that provide paid leave to its 
employees.
    But despite evidence that such leave actually helps, not 
hurts, the employers' bottom line, the number of employers 
providing paid leave--especially maternity leave--is less than 
it was 10 years ago. Can you believe it? We, the wealthiest 
nation in the world, are regressing.
    Amazingly, even without paid leave, workers manage to get 
by. But, we can do better for our workers and their families 
than ``getting by.'' We can bridge work and family.
    We will be hearing from Julienne Condos, whose coworkers 
from St. Charles Hospital have generously contributed their own 
vacation time to her so she and her husband can get along 
financially while coping with her diagnosis of acute leukemia.
    We will also hear from George Blekas, who has been able to 
take family and medical leave to care for his wife who has 
breast cancer.
    But leave is unpaid, and while Mr. Blekas has been able to 
take the leave knowing that his job is secure, his family has 
gone from a comfortable life to living paycheck to paycheck.
    Reports tell us that there are countless others who, while 
eligible for leave under the Family and Medical Leave Act, do 
not take it because they simply cannot afford time off without 
pay.
    This is not to say that we aren't making any progress in 
providing family and medical leave to people who need it.
    Just this year the President signed into law the first-ever 
expansion of the Family and Medical Leave Act, my legislation, 
to provide six months of leave to workers with wounded service 
members.
    The legislation also allows families to take leave from 
work in the event a family member is deployed overseas.
    I am proud to have sponsored the legislation, but we need 
to go further and make it paid leave.
    The U.S. is lagging behind the rest of the world in 
providing paid leave. A study of workplace policies in over 170 
countries found that the U.S. was one of four countries--with 
Papua New Guinea, Swaziland and Liberia--that did not have paid 
sick leave for new mothers. That is unacceptable.
    And so this session, I reintroduced the Balancing Act which 
puts into place a whole host of family-friendly policies, 
including a provision for paid leave.
    And on April 22, I, along with my colleagues Chairman 
Miller, Representatives Stark and Maloney, introduced H.R. 
5873, The Family Leave Insurance Act, which will provide 
workers with 12 weeks of paid family and medical leave.
    We must adopt paid leave policies because workers should 
not be put in a situation where they are forced to choose 
between keeping their job and caring for their family.
    I am looking forward to hearing everyone's testimony today.
    Mr. Bishop. I want to first thank Chairwoman Woolsey for 
having this hearing on Long Island. I also want to thank each 
of our witnesses for coming here today to share their story or 
expertise.
    Chairwoman Woolsey's leadership has been invaluable in 
making sure important issues are discussed by the Congress. I 
also would like to thank her staff for putting this hearing 
together, as well as Lisa Wieber and Charlie Boeckmann in my 
office here in New York and Joanna Serra in my Washington 
office for all their hard work.
    Balancing work and family is an issue that affects Long 
Islanders every day. Many of our families juggle caring for 
children while having two parents that work full-time. When 
illness occurs, for either a family member or themselves, 
balancing becomes even more of a challenge.
    I believe that Government could and should be doing more to 
help families balance care for loved ones while still 
protecting their job and financial security. In fact, when it 
comes to paid leave, the United States lags seriously behind 
other industrialized countries. We rank last in the amount of 
paid leave that is provided to new parents.
    Families here on Long Island and around the country have to 
choose between caring for themselves or a family member and 
going to work for a much needed paycheck.
    The Family Medical Leave Act, FMLA, was passed in 1993. It 
allows employees to take up to 12 weeks of unpaid leave to care 
for themselves or a loved one.
    No one can deny that FMLA has been a great program for 
working families in this country. No one can question the 
benefit it has provided for working women and men by being able 
to take time off from work to care for themselves or family 
members.
    However, today we will hear from two witnesses who will 
discuss the burden of unpaid leave and the need for paid leave. 
Many employees report that the main reason they do not take 
FMLA leave is ``lack of money.''
    We will also hear from Donna Dolan, an expert on both 
Federal and State policies on family leave.
    We will also hear from a company, KPMG, that already 
provides paid leave. KPMG realizes that providing a benefit 
like paid leave not only benefits employees, but employers as 
well. Employees who receive benefits like paid leave are more 
likely to stay at their jobs, feel more loyalty to their 
employer, and are happier employees and are more productive.
    Since FMLA passed in 1993, there has sadly only been one 
extension of FMLA--and that was merely months ago when Congress 
passed a provision in the Defense Authorization bill allowing 
up to six months of unpaid leave for family members of 
seriously wounded soldiers or 12 weeks for a qualifying 
exigency. Ms. Woolsey's leadership was instrumental in making 
sure this bill passed the Congress and was signed into law.
    In addition, last month, a bill that I sponsored, H.R. 
2744, the Airline Flight Crew Technical Corrections Act, passed 
in the House of Representatives with overwhelming support.
    The intent of the FMLA was to provide for 12 weeks of 
unpaid leave if an employee has worked 60 percent of a full-
time schedule over the past year.
    While 1,250 hours adequately reflects 60 percent of a full-
time schedule for the vast majority of employees in this 
country, that equation does not work for flight attendants and 
pilots. Flight attendants and pilots work under the Railway 
Labor Act rather than the Fair Labor Standards Act which covers 
most 9-5 workers.
    Time between flights, whether during the day or on 
overnights/layovers, is based on company scheduling 
requirements and needs but does not count towards crew member 
time at work. Flight attendants and pilots can spend up to four 
to five days a week away from home and family due to the nature 
of their job, however all those hours will not count towards 
qualification.
    H.R. 2744 will finally fix this technical problem and 
flight crew members will be able to receive the benefit that 
they deserve.
    While there is much more to be done on the Federal level 
for paid leave, several States have begun to enact their own 
paid leave policies. Most recently, New Jersey became the third 
State to enact a paid leave policy.
    Although New York State does not have a paid leave policy, 
employees may take temporary disability insurance after the 
birth of a child. Workers may have receive 50 percent of their 
wage--with a maximum of $170 per week--hardly enough to care 
for a family considering today's cost of living. Disability 
insurance is not available to care for older, disabled or sick 
family members.
    While this is notable, more needs to be done.
    I look forward to hearing from all our witnesses today on 
this important subject affecting Long Islanders, and I hope 
that we can all come to some conclusion about what should be 
done.
    Without objection, I would like to enter Congressman 
Bishop's testimony and both of our opening remarks into the 
record. So moved.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    I want to thank everyone for coming to Hauppauge, New York for this 
field hearing on balancing work and family.
    I especially want to thank Representative Bishop for hosting the 
Workforce Protections Subcommittee in this wonderful location.
    And thanks to his staff and the crew here at the William H. Rogers 
Legislature Building for all of your work in preparing for the hearing.
    In Congress, Mr. Bishop has been working diligently on behalf of 
working families, and just recently the House passed his bill, H.R. 
2744, which will clarify that airline attendants and pilots are covered 
by the Family and Medical Leave Act.
    He will no doubt elaborate on what this legislation does in his 
opening statement.
    But I want all of you to know how much Representative Bishop cares 
about these issues.
    The Subcommittee on Workforce Protections is dedicated to finding 
solutions so that workers in this country can better balance work and 
family.
    During the 110th Congress, the Subcommittee has held 3 hearings on 
balancing work and family, and today we will focus on the issue of paid 
leave.
    Balancing work and family is a challenge for most of us, and it is 
important that we as a country address this issue.
    As the cost of living increases and wages remain the stagnant, 
Americans have to work longer hours to be able to pay the bills.
    Most of us work because we have to, despite the fact that we may 
also have a spouse or partner also works.
    It now takes 2 people in a household to pay the mortgage, the rent 
and to put food on the table.
    Americans dream of economic independence, a secure future, and a 
good life for their children.
    However, for most Americans this dream is slipping away.
    Gasoline costs are sky-high and other household costs are going up 
rapidly as well.
    I was a human resource manager for 20 years and, for many years, a 
single mother supporting 3 children on my own.
    So I know what it is like for workers to try to balance work and 
home life, at the same time they are worrying about their family's 
economic security.
    All families, including those struggling to stay in the middle 
class, need Government to develop policies that will help ease their 
burden.
    One of these policies is the establishment of paid family and 
medical leave.
    Unfortunately, there is no existing federal policy on paid leave, 
and only a handful of states, including my home state of California, as 
well as New York, New Jersey, Puerto Rico and now Washington State 
provide any kind of paid leave.
    It is true that there are some wonderful companies--such as KPMG, 
our witness here today--that provide paid leave to its employees.
    But despite evidence that such leave actually helps not hurts 
employers' bottom line, the number of employers providing paid leave--
especially maternity leave--is shrinking and is less than it was 10 
years ago.
    Amazingly, even without paid leave, workers have managed to get by.
    We will be hearing from Julienne Condos, whose coworkers from St. 
Charles Hospital have generously contributed their own vacation time to 
her and her husband so they can get along financially while coping with 
her diagnosis of acute leukemia.
    We will also hear from George Blekas, who has been able to take 
family and medical leave to care for his wife who has breast cancer.
    But that leave is unpaid, and while Mr. Blekas has been able to 
take the leave knowing that his job is secure, his family has gone from 
a comfortable life to living paycheck to paycheck.
    But there are countless others who, while eligible for leave under 
the Family and Medical Leave Act, do not take it.
    And the most frequent reason they cite for not taking the leave is 
that they cannot afford it.
    This is not to say that we aren't making any progress in providing 
family and medical leave to people who need it.
    Just this year the President signed in law the first-ever expansion 
of the Family and Medical Leave Act to provide 6 months of leave to 
workers with wounded servicemembers.
    The legislation also allows families to take leave from work in the 
event a family member is deployed overseas.
    I am proud to have been a sponsor of that legislation, but that 
leave is still unpaid and we need to go further.
    After all, the U.S. is lagging behind the rest of the world in 
providing paid leave.
    A study of workplace policies in over 170 countries found that the 
U.S. was one of 4 countries--with Papua New Guinea, Swaziland and 
Liberia--that did not have paid sick leave for new mothers.
    That is unacceptable.
    And so this session, I reintroduced the Balancing Act which puts 
into a place a whole host of family-friendly policies, including a 
provision for paid leave.
    And on April 22, I, along with my colleagues Chairman Miller, 
Representatives Stark and Maloney introduced H.R. 5873, the Family 
Leave Insurance Act, which will provide workers with 12 weeks of paid 
family and medical leave.
    We must adopt paid leave policies because workers should not be put 
in a situation where they are forced to choose between keeping their 
job and caring for there family.
    I am looking forward to hearing everyone's testimony today.
                                 ______
                                 
    [The statement of Mr. Bishop follows:]

   Prepared Statement of Hon. Timothy H. Bishop, a Representative in 
                  Congress From the State of New York

    I want to first thank Chairwoman Woolsey for having this hearing on 
Long Island. I also want to thank each of our witnesses for coming here 
today to share their story or expertise.
    Balancing work and family is an issue that affects Long Islanders 
everyday. Many of our families juggle caring for children while having 
two parents that work full time. When illness occurs, for either a 
family member or themselves, balancing becomes even more of a challenge
    I believe that government could and should be doing more to help 
families balance care for loved ones while still protecting job and 
financial security. In fact, when it comes to paid leave, the United 
States lags seriously behind other industrialized countries.
    They like many others here on Long Island and around the country 
have to choose between caring for themselves or a family members or 
going to work for a much needed paycheck.
    The Family Medical Leave Act (FMLA) was passed in 1993 it allows 
employees to take for 12 weeks of unpaid leave to care for themselves 
or a loved ones.
    No one can deny that FMLA has been a great program for working 
families in this country. No one can question the benefit it has 
provided for working women and men by being able to take time off from 
work to care for themselves or family members.
    However, today we will hear from two witnesses who will discuss the 
burden of unpaid leave and the need for paid leave. Many employees 
report that the main reason they do not take FMLA leave is ``lack of 
money.''
    We will also hear from Donna Dolan, an expert on both Federal and 
state policies on family leave.
    We will also here from a company, KPMG, that already provides paid 
leave.
    KPMG realizes that providing a benefit like paid leave, not only 
benefits employees but employers as well.
    Employees who receive benefits like paid leave are more likely to 
stay at their jobs, feel more loyalty to their employer and are overall 
happier employees and more productive.
    Since FMLA passed in1993, there has sadly only been one extension 
of FMLA--and that was merely months ago when Congress passed a 
provision in the Defense Authorization bill allowing up to 6 months of 
unpaid leave for family members of seriously wounded soldiers or 12 
weeks.
    In addition, last month, a bill that I sponsored, HR2744, the 
Airline Flight Crew Technical Corrections Act, and every member of this 
Subcommittee sponsored passed in the House of Representatives with 
overwhelming support.
    The intent of the FMLA was to provide for 12 weeks of unpaid leave 
if an employee has worked 60% of a full time schedule over the past 
year.
    While 1,250 hours adequately reflects 60% of a full time schedule 
for the vast majority of employees in this country, that equation does 
not work for flight attendants and pilots. Flight attendants and pilots 
work under the Railway Labor Act rather than the Fair Labor Standards 
Act which covers most 9-5 workers.
    Time between flights, whether during the day or on overnights/
layovers, is based on company scheduling requirements and needs but 
does not count towards crewmember time at work. Flight attendants and 
pilots can spend up to 4--5 days a week away from home and family due 
to the nature of their job, however all those hours will not count 
towards qualification.
    HR2744, will finally fix this technical problems and Flight Crew 
members will be able to receive the benefit that they deserve.
    While there is much more to be done on the federal level for paid 
leave, several states have begun to enact their own paid leave 
policies. Most recently, New Jersey became the third state to enact a 
paid leave policy.
    Although NY State does not have a paid lave policy, employees may 
take temporary disability insurance after the birth of a child. Workers 
may receive 50% of their wage--with a maximum of $170 per week--hardly 
enough to care for a family considering today's cost of living. 
Disability insurance is NOT available to care for older, disabled or 
sick family members.
    While this is notable, more need to be done.
    I look forward to hearing for all our witnesses today on this 
important subject affecting Long Islanders and I hope that we can all 
come to some conclusion about what should be done.
                                 ______
                                 
    Chairwoman Woolsey. Now I would like to introduce our very 
distinguished panel of witnesses who came here this afternoon 
and have been very patient with us. Thank you.
    I am going to introduce them in the order they are going to 
speak, introduce them all at once.
    Donna Dolan is employed by the Communication Workers of 
America and has been the CWA District 1 Director of Work-Family 
Issues for the past 16 years. Ms. Dolan chairs the New York 
State Paid Family Leave Coalition, and is a steering committee 
member of the multi-State consortium on paid leave. She is a 
graduate of Boston College and holds a master's degree from 
Bowling Green State University.
    Julienne Condos has been employed by St. Charles Hospital 
in Port Jefferson, New York, since 1998, most recently as the 
Director of Program Development on Rehabilitation. Last year, 
Ms. Condos was diagnosed with acute leukemia and has been 
unable to return to work. She received her bachelor's and 
master's degrees from Ithaca College and has been pursuing her 
Masters in health care administration at Stony Brook 
University. Ms. Condos lives with her husband and two young 
children in Rocky Point, New York.
    George Blekas has been employed as an outside field 
technician at Verizon in Riverhead, New York, for 20 years. 
Last year, his wife, Maria, was diagnosed with breast cancer 
and he has had to take unpaid family and medical leave to care 
for her. Mr. Blekas has attended college at the University of 
Texas and State University of New York in Selden as part of 
Verizon's Next Step Program. He lives in Manorville with his 
wife and two sons.
    Barbara Wankoff is the director of workplace solutions at 
KPMG. She has 25 years of professional experience in human 
resources and joined KPMG in the year 2000. She has been in her 
current position since 2003. Ms. Wankoff received her BA from 
Brandeis University. This will be the second time she has 
testified before the subcommittee, and we welcome her back. 
Thank you very much.
    Now, for those of you who have not testified before this 
subcommittee, let me explain our lighting system and the 5-
minute rule. Everyone, including Members, is limited to five 
minutes of presentation or questioning. The green light is 
illuminated when you begin to speak. When you see the yellow 
light, it means you have one minute remaining. When you see the 
red light, it means your time has expired and you need to 
conclude your testimony. We don't cut you off in mid-sentence, 
in mid-thought or in mid-idea, so don't worry about that. And 
know that if you had a lot more you wanted to say, during the 
question and answering, we will make that possible.
    So we will now hear from our first witness, Ms. Dolan.

  STATEMENT OF DONNA DOLAN, CHAIR, NEW YORK STATE PAID FAMILY 
                        LEAVE COALITION

    Ms. Dolan. Good morning, Honorable Members of Congress, 
staff, fellow witnesses and guests. My name is Donna Dolan. 
Thank you for inviting me here to testify today on behalf of 
the New York State Paid Family Leave Coalition.
    The Coalition, which has been working to advance paid 
family leave and paid sick days here in New York State, is 
comprised of over 100 organizations representing labor and 
advocates for low-income working families, women, children, 
seniors, the disabled and the chronically ill. The Coalition 
also has a small business advocacy component. I am here today 
to urge Congress to pass a comprehensive paid family leave 
insurance program.
    Momentum is growing around the country to provide universal 
paid family leave through social insurance. Why? Because we 
know it is well past the time that the workplace practices 
catch up with the realty of today's workforce where the vast 
majority of women are working. We know it takes two earners to 
earn a decent standard of living. And this is all about, ladies 
and gentlemen, ending the war, the tug of war that workers feel 
when they are pulled between their work and family 
responsibilities. And it is also about the health of our 
nation.
    We know that early childhood development is absolutely 
critical, and we know that infants do better when they have 
parental time. As just one example, in a large randomized 
trial, researchers found that breast feeding is associated with 
improved scores on intelligence tests in childhood. Studies 
have shown that a longer maternal leave significantly improves 
the health outcomes for the mother. We know that seriously ill 
children recover more quickly when a parent can take care of 
them. We know that we will save money on Medicare and Medicaid 
when a family member can be there when an aging parent is 
discharged from the hospital.
    Our neighbor, New Jersey, has become the third State to 
enact paid family leave, after California and Washington State. 
Five other States--Arizona, Massachusetts, Minnesota, 
Pennsylvania, and those of us here in New York--have bills in 
progress.
    Last year here in New York, we came very, very close. The 
Assembly passed a bill and Governor Spitzer had his pen ready 
to sign it. But the Senate instead decided to hold hearings 
around the State rather than bring the paid family leave bill 
to the floor for a vote.
    So this year, we are working on a new bill that was just 
introduced by the Senate last Friday the end of the day, and 
that would fix the problem that we have had which is a low 
benefit level.
    Currently, TDI, temporary disability insurance, in New York 
State is capped at $170 a week. We are looking to raise the 
temporary, the entire temporary disability insurance benefit 
rate, and paid family leave of course would be a part of this 
higher benefit rate and it would be phased in over two years 
and it would be capped at 50 percent of the State-wide average 
weekly wage. And by the year 2010, this would be $550 a week. 
And then from then on, it would keep pace with inflation.
    And New York has an advantage because we are one of only 
five States that already have a State-wide temporary disability 
insurance.
    But universal family leave insurance cannot happen without 
Federal action. The 2008 National Study of Employers that 
Congresswoman Woolsey made reference to, just released by the 
Families and Work Institute, found that there has been no 
progress on most measures of family-friendly workplace 
practices over the past decade, and that, as she stated, we are 
moving backwards when it comes to maternity leave.
    The percent of employers that have more than 100 employees 
providing full pay during the period of maternity-related 
disability has dropped down to 16 percent. That is down from 27 
percent 10 years ago.
    We can afford to do paid family leave here in New York 
State; and of course, we can afford to do it, we believe, 
nationally. But in terms of the States, the actual cost in 
California is just 58 cents a week deducted from the employees' 
paychecks. And in New Jersey, the projected cost is similar, 63 
cents a week, or a maximum of $33 a year.
    Voters overwhelmingly support paid family leave. We need to 
do it on the Federal level.
    I see my red light.
    And until that happens on the Federal level, we need to do 
it at the State level.
    Thank you very much.
    [The statement of Ms. Dolan follows:]

 Prepared Statement of Donna Dolan, Chair, New York State Paid Family 
                            Leave Coalition

    My name is Donna Dolan. Thank you for inviting me here to testify 
today on behalf of the New York State Paid Family Leave Coalition. The 
Coalition, which has been working to advance paid family leave and paid 
sick days, is comprised of over 100 organizations representing labor 
and advocates for low-income working families, women, children, 
seniors, the disabled and chronically ill. I am here to urge the 
Congress to pass a comprehensive paid family leave insurance program.
    Every American at some point in her or his life will need time to 
care for a newborn or newly adopted child, for an aging parent, or for 
a seriously ill family member, or will be that baby, aging parent, or 
ill spouse. The workers who need to take time off to provide that care 
should not have to choose between their loved ones and their 
livelihoods.
    Momentum is growing around the country to provide universal paid 
family leave through social insurance. Why? Because it is well past 
time for workplace practices to catch up to the reality of today's 
labor force where the vast majority of women are working and it takes 
two earners to provide a decent standard of living. It is about ending 
the war, the tug of war workers feel when they are pulled between work 
and family responsibilities. And it is also about the health of our 
nation.
    We know that early child development is absolutely critical. And we 
know that infants do better when they have parental time. As just one 
example, in a recent large randomized trial, researchers found that 
breast-feeding is associated with improved scores on intelligence tests 
in childhood. Studies by Chatterji, et. al., Fein and Roe, Visness and 
Kennedy and others have found that returning to work sooner 
significantly decreases the likelihood and duration of breast-feeding. 
In particular, women returning to work full-time and low-income women 
have difficulty continuing breast-feeding. In addition to benefiting 
the child, many studies have shown that a longer maternal leave also 
significantly improves health outcomes for the mother. We know that 
seriously ill children recover more quickly when a parent can take care 
of them. We know that we will save money on Medicare and Medicaid when 
a family member can be there when an aging parent is discharged from 
the hospital.
    Our neighbor, New Jersey has just become the third state to enact 
paid family leave, after California and Washington. Five other states, 
Arizona, Massachusetts, Minnesota, Pennsylvania, and New York have 
bills in progress.
    Last year New York came very, very close. The Assembly passed a 
bill and Governor Spitzer had his pen ready to sign it. But the Senate 
decided to hold hearings rather than bring the bill to the floor. Last 
year's bill would have provided up to 12 weeks of paid leave to care 
for a new child during the first year or a seriously ill family member. 
All private workers, including part-time employees, were covered and 
local and state government workers could decide whether or not to opt 
in. The benefit would have been the same as for Temporary Disability 
Insurance, which is capped at $170 a week and hasn't been raised since 
1989. We all know that this is laughably low and needs to be increased.
    So this year we are working on a new bill that would fix that 
problem and phase in a higher benefit level, increasing to half a 
worker's average weekly wage, capped at 50% of the statewide average 
weekly wage. That would place the cap at over $500 a week and would 
automatically keep pace with changing wage levels over time.
    The states are now at the forefront of change as has been the case 
for other sensible policy ideas that provide a basic floor of support 
for working families: raising the minimum wage, expanding health 
insurance coverage, work supports for mothers who have moved from 
welfare to jobs but not out of poverty, and ensuring that all workers 
can occasionally call in sick without fear of being fired. States 
provide useful laboratories, demonstrating that these policies work, 
testing variations, and ultimately putting to rest predictions that 
policies that are good for hard-working American consumers and tax-
payers are somehow bad for business.
    New York has an advantage because we are one of the five states 
that already have a statewide temporary disability insurance system. In 
effect, we already have the ``M'' in FMLA, partial wage replacement for 
your own serious illness, so now we need to expand it to provide the 
``F''. But 45 other states do not have a ready-made model to build on.
    Universal family leave insurance will not happen by itself without 
federal action. The 2008 National Study of Employers just released a 
few weeks ago by the Families and Work Institute found that there has 
been no progress on most measures of family-friendly workplace 
practices over the past decade, and that we are moving backwards when 
it comes to maternity leave. The percent of employers (with more than 
100 employees) providing full pay during the period of maternity-
related disability has dropped to 16 percent, down from 27 percent in 
1998.
    State initiatives and legislation at the national level to provide 
paid family leave for federal workers are important because they pave 
the way for passage of comprehensive, national paid family leave 
insurance. But the ultimate goal must be adoption of paid family leave 
at the federal level. We are one nation. It is good for our economy 
when workers can move to seek better opportunities for themselves and 
their families. Why should children be assured a healthy start in 
Hoboken but be deprived of the best shot at early childhood development 
across the river in Harlem? Why should a worker be able to afford to 
take time off to provide temporary care for a seriously ill aging mom 
or dad in Jersey City but not in Kansas City or Oklahoma City or New 
York City? The most successful social policies in America have been 
universal. Think Social Security and Medicare.
    We can afford to do this. The actual cost in California is just 58 
cents a week, deducted from employees' paychecks. In New Jersey the 
projected cost is similar, 63 cents a week or a maximum of $33 a year.
    The voters overwhelmingly support paid family leave. A recent 
national survey by the polling firm Lake Research found 76% in favor of 
paid family leave. Support is even higher in New York. A survey in New 
York City by Lake Research for Community Service Society found that 86% 
supported paid family leave--with three out of four of those surveyed 
saying that they strongly favored it. That is stunningly high support.
    H.R. 5873, the Family Leave Insurance Act of 2008, would fulfill 
the unfinished promise of the Family and Medical Leave Act, by ensuring 
that workers could actually afford to take family leave. The bill 
contains excellent provisions that we support including up to 12 weeks 
of leave, expanding the definition of family, job protection and 
structuring benefits progressively so that lower-wage workers get a 
higher percentage of their weekly earnings. It would cover some part-
time workers. We would suggest that this provision be broadened since 
many working women with young children, employees who most need this 
benefit, are employed part-time.
    I would also urge you to consider a proposal suggested by my 
colleague Nancy Rankin, for ``Fixing Social Insecurity.'' In her 2002 
book Taking Parenting Public, she suggests modernizing Social Security 
to allow workers to draw social security benefits for up to three years 
during their prime caregiving years. Social Security has helped 
diminish the poverty once faced by the aging after retirement. But 
Americans now face a new period of financial insecurity earlier in 
their lifetimes, when they need to take time off during their working 
years to raise the next generation or care for the previous one. This 
could be accomplished by raising the taxable earnings base for Social 
Security, a very small add-on to the payroll tax, or possibly some 
offsetting adjustment to retirement benefits for beneficiaries who have 
opted for caregiving benefits as is done now for those choosing early 
retirement.
    Many of you have heard the statistics that in international 
comparisons, the United States comes in dead last among 168 countries, 
tied with Liberia, Swaziland and Papua New Guinea in providing zero 
paid maternity leave. Providing paid family leave will not keep our 
country from being competitive in the global economy. But failing to 
promote healthy early child development most certainly will.
    Allow me to close with a personal story. As we campaign around the 
state for paid family leave, one of us dresses up as a giant stork who 
personally delivers thousands of constituent postcards to our elected 
officials urging the passage of paid leave. It gets attention. When we 
asked our tall, hefty colleague who played our stork on a recent Albany 
visit if he felt silly wearing this costume, he took off his stork head 
and told us his story. ``I'm glad to be the stork because I know how 
important this issue is. A few weeks ago, in April, my wife and I had a 
baby. My wife had to spend the last three weeks on complete bed rest 
and the final week in the hospital. So I had to take off from work to 
take care of our three year-old son who is autistic. When I went back 
to work, they told me I would not get paid. I couldn't pay our bills.''
    Thank you.
                                 ______
                                 

 STATEMENT OF JULIENNE CONDOS, DIRECTOR OF PROGRAM DEVELOPMENT 
            FOR REHABILITATION, ST. CHARLES HOSPITAL

    Ms. Condos. Thank you for inviting me to testify at this 
hearing today. Family-friendly leave policies including paid 
leave are issues that are very dear to my heart. And I hope 
that my story will assist Congress as it looks to developing a 
national policy for paid leave.
    My family and I live in Rocky Point, New York, and my 
husband Steve and I are employed by St. Charles Hospital which 
is located in Port Jefferson.
    In June 2007, I had my second child and I took 11 weeks of 
family and medical leave from my job as the Chief Therapist to 
care for and bond with my baby.
    My employer does not provide paid parental leave, but most 
of my time was paid because my employer does allow its workers 
to use their sick and vacation time. A few weeks of my leave 
were unpaid, but I was grateful to be home with my son even 
though it was difficult not receiving a paycheck during this 
time.
    My husband took time off for the birth of our son. He 
didn't take family and medical leave, but used his vacation 
time instead.
    I went back to work in September, but unfortunately in 
January of this year I was diagnosed with acute leukemia. Since 
then, I have not been able to work. I did try to resume my job 
in mid April, but after four days, I was completely exhausted. 
And the side effects of some of my medications made it very 
difficult for me to concentrate and focus on my work. At that 
time, I was receiving weekly outpatient chemotherapy, and since 
then I was rehospitalized for additional chemotherapy. I 
continue to travel to Manhattan at least once a week to see my 
doctor to have blood work done, get IV fluids and blood or 
platelet transfusions whenever I need them. Due to the nature 
of my type of cancer, I will need to continue chemotherapy for 
the next two years. My doctors said there is a 50 percent 
chance of the leukemia coming back, and if it does, then I will 
need to have a bone marrow transplant. Right now, whatever 
energy I have goes to caring for my two young children and my 
husband.
    All my vacation time and sick time was used up during my 
maternity leave, and I was very worried about being able to 
help support my family during my illness. In addition, I knew 
that my husband would need to take time off to help take me to 
appointments and to help care for me and the children. So I was 
very worried about how we would get by and if I would lose my 
job for being out of work for such a long period of time.
    My father was in a similar situation after he was diagnosed 
with multiple myeloma. He needed a stem cell transplant and was 
out of work for an extended period of time. His employer let 
him go, and he needed to use his retirement savings to make 
ends meet. After his treatment was over, he relocated to South 
Carolina because he could no longer afford to live in New York.
    A friend a fellow therapist also has a tragic circumstance. 
She is the mother of three boys and pregnant with twins. Early 
in her pregnancy, she learned there was a complication. The 
babies have twin-to-twin transfusion syndrome. She underwent 
intra-uterine surgery, and has been on bed rest since March. 
The babies are due on August 19. She will be out of work for 
quite sometime, and this has been very difficult financially 
for her and her family.
    However, I have been very fortunate. I am on short term 
disability through August, and my employer has allowed my 
coworkers to donate vacation time for both my husband and I to 
use. I am very grateful to my employer St. Charles Hospital and 
my wonderful coworkers. They have lightened our load 
considerably.
    So today I am speaking up for the countless others who are 
not so lucky and who become pregnant, or sick, or have a family 
member who are sick and can only take leave on an unpaid basis, 
which for many means they can't take leave at all.
    We need a national policy which guarantees workers with 
paid family and medical leave. I understand that we are behind 
most of the world because we don't offer this benefit, and I 
commend the subcommittee for looking into this important issue.
    Thank you.
    [The statement of Ms. Condos follows:]

Prepared Statement of Julienne Condos, Director of Program Development 
                for Rehabilitation, St. Charles Hospital

    Thank you for inviting me to testify at this hearing today. Family-
friendly leave policies, including paid leave, are issues that are very 
dear to my heart. I hope that my story will assist Congress as it looks 
at developing a national policy for paid leave.
    My family and I live in Rocky Point, New York and my husband, Steve 
and I are employed by St. Charles Hospital, which is located in Port 
Jefferson. In June, 2007, I had my second child and took 11 weeks of 
family and medical leave from my job as the Chief Therapist for 
Inpatient Rehabilitation to care for and bond with my baby. My employer 
does not provide paid parental leave, but most of my leave time was 
paid because my employer does allow its workers to utilize their sick 
and vacation time for this purpose. A few weeks of my leave were 
unpaid, but I was grateful for the time even though it was difficult 
not receiving a paycheck during that time.
    My husband took time off for the birth of our son. He did not take 
family and medical leave as such but utilized his vacation time for 
this purpose.
    I went back to work in September, but unfortunately in January of 
this year, I was diagnosed with acute leukemia. Since then, I have not 
been able to work. I did try to resume my job in mid-April but after 4 
days, I was completely exhausted. And the side effects of some of my 
medications made it very difficult for me to concentrate and focus on 
my work. At that time I was receiving weekly outpatient chemotherapy 
and since then I was re-hospitalized for additional chemotherapy. I 
travel into Manhattan at least once a week to see my doctor, have blood 
work done and get IV fluids and blood or platelet transfusions when 
needed. Due to the nature of my type of cancer I will need to continue 
chemo therapy for the next 2 years. There is a 50% chance of the 
leukemia coming back. If it does return I will need to have a bone 
marrow transplant. Whatever energy I have goes to caring for my two 
young children and my husband.
    All my vacation and sick time was used up on my maternity leave, 
and I was very worried about being able to help support my family 
during my illness. In addition, I knew that my husband would need time 
off to take me to appointments and to help care for me and the 
children. How would we get by? And would I lose my job if I had to be 
out of work for a long period of time? My father was in a similar 
situation after he was diagnosed with multiple myeloma. He needed a 
stem cell transplant and was out of work for several months. His 
employer let him go and he had to use his retirement savings to make 
ends meet. After his treatment was over he relocated to South Carolina 
because he could no longer afford to live in New York.
    A friend and fellow therapist also has a tragic circumstance. She 
is a mother of three boys and pregnant with twins. Early in the 
pregnancy she learned that there was a complication; the babies have 
twin to twin transfusion syndrome. She underwent intrauterine surgery 
and has been on bed rest since March. The babies are due on August 
19th. She will be out of work for quite some time. This has been very 
difficult financially for her and her family.
    However, I have been very fortunate. I am on short-term disability 
through August, and my employer has allowed my co-workers to donate up 
to 450 hours of vacation time for both my husband and I to use. I am 
very grateful to my employer, St. Charles Hospital and my wonderful co-
workers. They have lightened our load considerably.
    So today, I am speaking up for the countless others who are not so 
lucky and who become pregnant or are sick or have family members who 
are sick and can only take leave on an unpaid basis--which for many 
means they can't take leave at all.
    We need a national policy which guarantees workers with paid family 
and medical leave.
    I understand that we trail most of the world because we don't offer 
this benefit, and I commend the Subcommittee for looking into this 
important issue.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.

 STATEMENT OF GEORGE BLEKAS, OUTSIDE FIELD TECHNICIAN, VERIZON

    Mr. Blekas. Good morning, ladies and gentlemen, 
distinguished guests. My name is George Blekas. My purpose for 
being here today is to tell you about my experience with FMLA 
and the financial impact it has had upon my family while 
dealing with a catastrophic illness.
    I would like to give you a little of my background first. I 
graduated Plainview-Old Bethpage High School in 1979. I went to 
college at the State University of New York at Fredonia. I 
transferred to the University of Texas in Austin, Texas to 
study government and history. After Texas, I moved back to New 
York in 1989 and landed a job with New York Telephone.
    Ironically, one month later I found myself on the picket 
line in order to keep our medical coverage. CWA called for a 
strike. At the time, I must admit, it wasn't as obvious to me 
as it is today how important this fight really was.
    By 2000, New York Telephone had undergone a number of name 
changes, and one of the big changes brought about was a cut to 
the customary overtime that we have grown accustomed to having. 
Living on Long Island is an expensive proposition and, you 
know, it is not really an option to live here on less.
    So not being lazy, I had started my own boutique guitar 
electronics on the World Wide Web. This was a perfect second 
income for me because it didn't interfere with my family, my 
job, baseball.
    My story really revolves around my wife and children, so I 
would like to touch on them for a moment.
    I have known my wife, Maria, since we were 4. We went to 
school all the way from kindergarten through graduating. After 
high school, we went our separate ways and didn't get back 
together until 1989 when I got back to New York.
    We started dating on the 4th of July, we got engaged on the 
4th of July, and we got married on the 4th of July, which is 
kind of ironic when you think about tying the knot on 
Independence Day, but it kind of made it impossible for me to 
get in trouble by forgetting my anniversary.
    Today we have two boys--Nicholas, who is 14, and Brian, who 
is 11 years old--both very active in baseball. Once Brian was 
old enough to go to school, Maria got a job as a teacher's aide 
in Eastport South Manor School District. This was our third 
income. And the job was perfect because Maria's schedule 
mirrors the boys' schedule.
    One day while at one of the boys' baseball games, Maria 
jumps up and cheers and feels something. Ironically, this was 
September 11, 2007, that we felt this lump that appeared to 
engulf her entire breast. By September 21, we had the news that 
it was an 8-centimeter Stage 3 breast cancer. Needless to say, 
everything changed for us that day.
    I took vacation time to cover the many doctor visits and 
tests that Maria had to go through. Quickly that ran out and I 
was informed by my boss, Tom Schultz and Rick Nemcheck of CWA 
1108, of something called FMLA. FMLA would allow me to keep my 
job while give me 12 weeks off without pay to tend to the 
medical needs of my wife.
    With my job secure, I was able to concentrate on cancer and 
its various treatments and the many side effects. I was reading 
everything I could find on the subject.
    Maria had to leave work, as she had 10 weeks of 
chemotherapy, a mastectomy, and 30 doses of radiation she had 
to deal with, so work for her was not an option.
    At this point, I am mom, dad, nurse, part-time Verizon 
employee. I no longer had time nor the energy to work my 
electronics business. In effect, I lost my second income, my 
wife's income, and Verizon's income because FMLA does not pay 
for those missed days.
    With bills coming in, you resort to savings which is 
quickly depleted, and income down to a trickle. You are 
scrambling to keep from losing your house and keep a roof over 
your wife and children's heads. I sold a car, I had to cash in 
a 401(k) that my wife had prior to getting married, and I 
wondered what I would do next. Do I get another mortgage? Do I 
take from my 401(k)? Do I sell a kidney? What do I do?
    I think we live in the greatest country in the world, and I 
think we can do better. We talk about family values. Paid 
Family Medical Leave Act would be not just talking to talk, but 
walking the walk where family values are concerned.
    So I suggest, I urge Congress to pass this Paid Family 
Leave Legislation and New York State to pass the same by the 
end of the month session, June 23, in order to alleviate the 
grim realty of living paycheck to paycheck.
    I thank you for your time.
    [The statement of Mr. Blekas follows:]

    Prepared Statement of George Blekas, Resident of Manorville, NY

    Good morning ladies, gentlemen and distinguished guests. My name is 
George Blekas and my purpose for being here today is to tell my 
experience with FMLA and the financial impact of dealing with a 
catastrophic illness.
    I would like to give you a little of my background. I graduated 
Plainview-Old Bethpage high school in 1979, went to college at SUNY, 
Fredonia and the University of Texas in Austin, Texas. After moving 
back to New York in 1989 I landed a job with New York Telephone.
    Ironically one month after being hired by New York Telephone I 
wound up walking the picket line to keep my medical coverage. I must 
admit at the time it was not as obvious to me, as it is today, how 
important that fight was.
    By 2000 New York Telephone had undergone a bunch of name changes 
and one big change this brought was a cut to the customary over time 
that I had gotten to used to having. Living on Long Island is an 
expensive proposition so not being lazy, and being good with 
electronics, I started up a boutique guitar electronics company on 
World Wide Web. This was the perfect second income for me as I could do 
this when ever I had the time and it did not interfere with the family, 
work or baseball.
    My story revolves around my wife and children so I would like to 
touch on them for a moment. I have known my wife, Maria since we were 4 
years old. We went all the way through school and graduated High School 
together. We went our separate ways during the college years but got 
together after I got back from Texas in 1989. We started dating on the 
4th of July, we got engaged on the 4th of July and we got married on 
the 4th of July, which is kind of ironic when you think about tying the 
knot on Independence Day. It does make it impossible to forget your 
wedding anniversary which tends to keep me out of the dog house. Today 
we have two boys. Nicholas who is 14 years old and Brian who is 11 
years old. Both are very active in travel baseball. Once Brian was old 
enough to go to school Maria got a job as a teacher's aide in the 
Eastport South Manor School district. This was our third income and the 
job was perfect because Maria's schedule was identical to the boy's 
schedule.
    One day while at a baseball game Maria jumped up to cheer and felt 
something in her left breast. Ironically this was September 11th, 2007 
that we felt a lump that appeared to engulf her entire breast. By 
September 21st we had the news that this was an 8cm stage 3 Breast 
Cancer. Needless to say everything changed for us that day. We had to 
spend many days visiting various doctors for all sorts of tests. 
Initially, I took vacation time to cover the many doctor visits but 
soon ran out of time. I was informed by my boss, Tom Schultz, and Rick 
Nemcheck, of CWA Local 1108, of something called FMLA. FMLA would allow 
me to keep my job while allowing me up to 12 weeks off, without pay, to 
tend to the medical needs of a family member.
    With my job secure I was able to concentrate on cancer and its 
various treatments and side effects. I was reading everything I could 
find on the subject. Maria had to leave work as she now had 10 weeks of 
Chemotherapy, a mastectomy and radiation to deal with so working was 
not an option for her.
    At this point I was a dad, mom, nurse and part time Verizon 
employee. I no longer had the time, nor energy to do my electronics 
business. In effect I lost my second income, my wife's income and 
Verizon income because FMLA does not pay for the time missed tending to 
a sick family member.
    With the bills coming in, savings depleted and income down to a 
trickle one has to scramble to keep from losing the farm. I sold off a 
car and cashed in a 401k, that Maria had prior to getting married, in 
order to keep up and was wondering what I will do next. Another 
mortgage perhaps? Take from my 401k? Sell a kidney?
    Today we are literally living from pay check to pay check so I urge 
Congress to pass the Paid Family Leave Legislation. I also want to ask 
the New York State Legislature to pass Paid Family Leave at the state 
level this month by the end of the session on June 23rd, in order to 
alleviate the grim reality of living pay check to pay check.
    I thank you for your time. Have a nice day.
                                 ______
                                 
    Chairwoman Woolsey. Thank you.
    Ms. Wankoff?

STATEMENT OF BARBARA WANKOFF, DIRECTOR OF WORKPLACE SOLUTIONS, 
                              KPMG

    Ms. Wankoff. Good morning. My name is Barbara Wankoff and I 
am KPMG's national director of workplace solutions. I am 
responsible for the firm's work life benefits and programs 
supporting our goal to be an employer of choice. Thank you very 
much for the opportunity to testify before you today.
    KPMG is a tax, audit and advisory firms with more than 
21,000 employees and 1,800 partners in the United States, and 
we believe that helping employees manage their responsibilities 
both inside and outside of work is beneficial to everyone and 
to our bottom line.
    At KPMG, we are promoting a culture of flexibility. 
Retaining our employees is very important to the success of our 
firm. Keeping our best people helps us to maintain client 
continuity and allow for knowledge sharing. So we have added 
some very innovative programs to improve our retention rates.
    We know there are times in employees' lives when it becomes 
necessary to take time off to tend to personal concerns and 
major life events, and we have programs to address these times.
    For example, we recognize the critical need for new mothers 
to bond with their children, so we allow them to take up to 26 
weeks of leave, going beyond FMLA, while guaranteeing that 
their job will be waiting for them when they return. And this 
applies to births, adoptions or foster care placement. And by 
paying women 100 percent of their regular salary for up to 
eight weeks, as well as additional weeks at two-thirds pay, we 
are making easier for women to take the time off that they 
want.
    We also believe that fathers should have time to bond with 
their newborns and be there to support their spouses and 
partners. New fathers receive two weeks of paid parental leave 
any time within the first year after the birth, adoption or 
placement of a child in the home. This program has been in 
place since 2002, and an astounding 82 percent of our fathers 
have taken advantage of it.
    We are proud of the fact that we created an environment at 
KPMG that encourages people to use these benefits when they 
need them.
    For those employees who are adopting a child, in addition 
to the two weeks paid leave, an additional six weeks of paid 
leave is available if your spouse or partner is not staying at 
home with the child on a temporary or long-term basis. This 
assures that at least one parent will be home with the newly 
adopted child for the first six weeks after placement.
    We pay attention to not only the time off, but also to our 
new moms' return to work. To ease the transition for new 
mothers, we provide privacy rooms for breast feeding and allow 
them to phase in their return from leave. For example, some new 
parents return to work three days per week initially and 
gradually ramp back up to full-time responsibilities and hours.
    Another program we are particularly proud of is called 
shared leave. This allows an employee caring for a seriously 
ill relative, and who has exhausted their personal time, to 
request an additional 12 weeks paid time off that is donated by 
fellow employees. We developed shared leave after listening to 
our people tell us that what they wanted most when faced with a 
serious illness in their family was to spend time with their 
loved one.
    It is amazing how willing coworkers are to donate some of 
their time to a colleague. Fully 100 percent of shared leave 
requests are met by the generosity of their fellow employees. 
This program is a Godsend for those facing difficult times. In 
2007, 80 people used 13,957 donated hours.
    KPMG also provides unpaid leave for 24 months to pursue 
various personal interests including additional education or 
civic duties. These programs enable employees to stay more 
closely connected to the firm and to return more easily than if 
they terminated their employment.
    KPMG supports our military personnel and provides paid time 
off for one week of annual reserve training and grants 
additional time as necessary. In an effort to support our full-
time employees who are called to active duty, the firm provides 
differential pay for the length of the service activation up to 
six months.
    Our generous paid time off policy allows employees to 
supplement leaves with paid personal time, extending their paid 
time away from the job, and yet still having time to enjoy 
vacations throughout the year.
    Our commitment to helping working families has not gone 
unnoticed. KPMG has earned a spot on Working Mother Media's 
List of 100 Best Companies for Working Mothers 11 times, and we 
were in the top 10 last year. We have made the Companies That 
Care Honor Roll five times, and for the past two years Fortune 
Magazine named KPMG one of the 100 Best Companies to Work For.
    These programs help us attract and retain key talent which 
is critical to meeting clients' needs and to the overall 
success of the firm. At KPMG, retention rates and morale are 
up.
    Thank you for this opportunity to share KPMG's views with 
you today.
    [The statement of Ms. Wankoff follows:]

                 Prepared Statement of Barbara Wankoff,
                 Director of Workplace Solutions, KPMG

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairwoman Woolsey. Thank you, Ms. Wankoff.
    Congressman Bishop?
    Mr. Bishop. Thank you very much.
    And to our four witnesses, thank you for your testimony and 
for the compelling stories that you have told.
    Let me start with Ms. Wankoff, and let me first commend 
KPMG for their family-friendly policies.
    In a previous life, I was a senior administrator of a 
college and our audit partner was KPMG, and I have to say that 
I found everyone with whom we interacted to be unfailingly 
professional, and very skilled and very helpful. I also found 
them to be very exacting; that is to say that they always 
challenged us to see to it that what we were doing was cost 
effective. So I have to assume that KPMG imposes the same 
standards, shall we say, internally as they do externally.
    So can you tell me what kinds of assessment KPMG has 
undertaken that allow them to recognize that what they are 
doing has a favorable cost benefit for the company.
    Ms. Wankoff. Absolutely, Congressman. You are so right. We 
look at all sorts of metrics. One of the key metrics that we 
look at is retention. We are in a war for talent. We are always 
looking to hire the best people, and retain those people, and 
continue to develop them professionally so that they can meet 
the needs of our clients.
    And we do know, especially on the maternity leave, that 
that is a crossroads in people's lives as in any personal 
crisis, and we want to make sure that we are retaining people 
through those crossroads. So we look at providing family-
friendly benefits and leave of absences that meet those needs 
and allow those employees to come back to us and be productive 
and effective employees.
    We see that we have had increased retention rates, our 
turnover continues to decrease, and over the past five years 
has decreased 40 percent, and over the last year an additional 
three percent. We believe it is the combination of family-
friendly policies that help us retain these employees.
    Mr. Bishop. How would you describe the competitive 
environment in which you find yourselves? Are you competing for 
the best talent and winning, or are you finding some of your 
policies, because they may increase your costs somewhat, put 
you at a competitive disadvantage?
    Ms. Wankoff. We believe that we are always competing. We 
are competing for talent, and we are competing for clients, and 
we are competing in these economic times. But we do believe 
that our policies help us attack and retain those employees, 
make our employees effective and productive, and that allows us 
to be competitive with our clients as well.
    Mr. Bishop. Thank you very much.
    Ms. Condos, thank you. By the way, it is nice to see you 
looking so healthy. I am glad things for now are going well for 
you. You work at St. Charles Hospital. I am honored to 
represent St. Charles Hospital. I think they do a first-rate 
job in a very, very adverse climate and I thank you for being a 
part of the care that they deliver to patients.
    It sounds to me as if both St. Charles and your coworkers 
were very, very supportive of the condition or the situation 
that you found yourself in. How do you think you would have 
been affected or impacted had you not had such a supportive 
employer or such supportive coworkers?
    Ms. Condos. They have been extremely supportive, and 
fortunately I haven't had to spend too much time thinking about 
that. I really don't know what we would do.
    Similar to Mr. Blekas, my husband and I contemplated 
remortgaging the house, similar types of things, tapping into 
401(k)s, living off of credit cards. We don't know because, in 
addition, we are doing some of that because of the additional 
medical costs. So it would be extremely difficult.
    Mr. Bishop. Thank you very much.
    I have time for one more question in this round. Let me ask 
Mr. Blekas.
    First, let me say that your employer was my father's 
employer. Your union was my father's union, and so I thank you 
for being here this morning.
    You made mention of having lost overtime. I sit here today 
because of overtime that had been provided as a result of the 
collective bargaining protection that my father had. He sent 
five kids through college primarily on overtime. I wouldn't 
have had the opportunities I had if it weren't for that.
    Have you utilized all of the FMLA leave that you have in 
this year? Have you utilized all of your paid vacation time? 
And if so, what is your next alternative in the event that your 
family needs more from you than you can currently provide?
    Mr. Blekas. I believe they gave me April, the end of April 
was like the end of the okay, you know, what they gave as my 
FMLA time where I can take the unpaid days off. I believe I had 
to file for an extension, which I haven't done. They kind of 
give you--I am not really sure where that date came about, but 
that was, I mean, because my wife is still going for treatments 
so you know.
    Mr. Bishop. But as far as you know, you have exhausted your 
FMLA time?
    Mr. Blekas. Well, I did last year, and this year I am about 
to. So like I said, my wife isn't finished, and you know, being 
a part of the union, they have, you know, like Mrs. Condos' 
coworkers, they have helped as well even though they don't have 
the ability Verizon has to put it in. I am really proud of the 
guys I work with. Whether it is September 11 or someone getting 
ill, they are always there. You know, they are--I mean, I 
really believe they are the embodiment when you hear the term 
``family values.'' I am not too sure, you know, you get that 
from--usually it is just lip service, the word, and I think 
something like a paid FMLA would be the way to go as far as 
when you are talking family values.
    Mr. Bishop. Thank you very much.
    I yield back.
    Chairwoman Woolsey. Thank you very much.
    Ms. Dolan, I was pleased that you support H.R. 5873, the 
Family Medical Leave Insurance Act, which I cosponsor, and will 
provide workers with 12 weeks of paid leave with the employee 
and employers contributing to an insurance fund. And States 
could do this. States could have an insurance fund that is 
matched by some degree with the employee and the employer.
    So tell me why you favor--or do you favor the insurance, or 
do you favor that each State could put together their own plan 
with some incentive and help from the Federal Government as 
long as they knew the amount of a plan?
    Ms. Dolan. That is a difficult question, Congresswoman 
Woolsey. I think you have to look at the experience of 
California, and their laws have been in effect since July 1, in 
your State, of 2004. You know, New Jersey's won't go into 
effect until July 1 of 2009. The employees are contributing the 
cost of that part of temporary disability insurance for paid 
family leave.
    I know the fund that you envision is a fund that would be 
jointly supported that the employees would be contributing to 
as well. I think that, you know, California has shown that that 
can be done successfully. I think that you folks are the 
experts in terms of do you think this will, you know, in terms 
of a national level, obviously it has to be implemented. Well, 
could be implemented nationally looking at the other social 
insurance programs.
    Chairwoman Woolsey. I always say if there is a will, there 
is a way.
    Ms. Dolan. Yes, I agree.
    Chairwoman Woolsey. I am okay with the State coming up with 
their own plan as long as it is a real plan. You know, we all 
know that State disability doesn't pay a person in full salary.
    Ms. Dolan. Right.
    Chairwoman Woolsey. But it has worked out that it is enough 
of an offset to a person's income that it makes the difference 
between going broke, living day-to-day and not.
    Ms. Condos, it sounds like your employer and the people you 
work with are actually fantastic, and yours, too, George. Think 
of having friends in your workplace like that, that will give 
that much. But what do you think would have been different in 
your situation? I mean, kind of tell us how it would have 
worked if you had been able to count on paid leave.
    Ms. Condos. Obviously, my leukemia diagnosis came as a 
shock because I had just returned from a maternity leave a few 
months prior to that and I had used up all of my time.
    Within the first few days of my diagnosis, my mother even--
you know, she was obviously distraught over this, and she says, 
Jul, you know, I will give you my retirement, we will 
remortgage the house, we will do whatever we need to do to make 
this work. She was just concerned for my health and beating 
this, and that is really what we would have to do. We would 
have to pull from all sources to make it work out because I 
have been out of work an extended period of time and I am still 
going through treatment. So it would have been extremely 
different if it weren't for my generous coworkers who donated 
their vacation time to me.
    Chairwoman Woolsey. Right. If you had paid family leave----
    Ms. Condos. Well, then I wouldn't have to rely on my 
coworkers. I would just be able to use the paid family leave, 
of course.
    Chairwoman Woolsey. And, George, the same thing with you. 
You were saying that family values----
    Mr. Blekas. It could also help keep the American dream 
alive, you know. It is another elusive thing like family 
values. The American dream is something you build. We live in 
the greatest country in the world that can give all sorts of 
aid to all sorts of places. We can shoot million-dollar cruise 
missiles into the desert dirt somewhere. We can surely come up 
with the money to keep the American dream alive.
    Chairwoman Woolsey. Right. I think you are alluding to $90 
billion a week.
    Mr. Blekas. We have the funds. Charity starts at home.
    Chairwoman Woolsey. There you go.
    Congressman?
    Mr. Bishop. Thank you.
    Before I ask the next round of questions I just want to 
observe that we have been joined by Suffolk County Legislature 
Vivian Viloria-Fisher. Vivian, thank you very much for coming, 
and thank you for letting us use your workplace. We appreciate 
it.
    Ms. Dolan, can you tell us, briefly describe for us the 
paid family leave legislation or law that is currently in place 
in California and Washington or New Jersey. Take any one, and 
briefly describe it, and tell us if any one of them could serve 
as a model for national legislation.
    Ms. Dolan. Well, California, which has been in effect as I 
indicated for the past four years, the benefit rate--first of 
all, its duration is six weeks of paid family leave. They 
started at 12, and unfortunately it got whittled down to six. 
That, unfortunately, has been the model. Everyone in California 
that we are in collaboration with, and folks in New Jersey, New 
Jersey's law also had to be whittled down to six weeks, we 
would urge that at the Federal level that that 12 weeks be held 
onto. Certainly, we are fighting to do that here in New York 
State. We think the duration, certainly don't believe six weeks 
is long enough, that it needs to be 12 weeks.
    And in California, the benefit rate with California is 
linked to their Workers' Compensation rate. And the benefit 
rate for 2008 in California for paid family leave is capped at 
$917 a week. And in New Jersey, the benefit rate when they did 
the numbers for 2008 is $524, a cap of $524 a week for 2008. 
And in both States, there is a requirement that an employee, if 
they have two weeks available to them of their own leave time, 
a combination they get of vacation days and sick days, up to 
two weeks. Both of these laws mandate that an employee uses two 
weeks of their own time before the start of the paid family 
leave. Obviously, this was an effort so that folks would only 
take it if they, in fact, legitimately needed it. That is why 
those provisions were built in.
    Mr. Bishop. Thank you very much.
    Ms. Wankoff, KPMG is an international company. You have 
operations in over a hundred countries, and for many of those 
countries the paid family leave policies that you provide here 
in this country are, in effect, incorporated into the law or at 
least the practices of the countries elsewhere in the world.
    To what extent has the experience that KPMG has had in 
countries that do, in fact, provide paid leave for their 
employees influence the judgments that you have made with 
respect to the policies you put in place here in this country?
    Ms. Wankoff. Congressman, it is difficult for me to speak 
on a global basis. My responsibilities are primarily domestic, 
and we do look at our global policies, but we do very strongly 
take into account the market that we are in as we formulate 
policies for the U.S.
    Mr. Bishop. Thank you.
    Ms. Condos, you also describe in your testimony your 
father's circumstances. It doesn't sound like they worked out 
quite as well as the circumstances that worked out for you thus 
far. Do you know if he had any family leave options, or if he 
had the ability to take paid time off, unpaid time off? Did he 
work for a company that allowed his fellow coworkers to loan 
him their time off? Do you think of those things?
    Ms. Condos. Yeah, I did talk to him about it. When I came 
into my circumstance, I was curious what he did, but 
unfortunately, he worked for an employer that was not 
supportive at all, and he did not get anything whatsoever from 
his employer, or coworkers, or anything like that. So he had no 
other option.
    Mr. Bishop. Was it a large employer?
    Ms. Condos. No, it wasn't. No. He worked for a dry cleaning 
company, so it was a small company.
    Mr. Bishop. Thank you very much.
    I yield back.
    Chairwoman Woolsey. Well, thank you.
    While we are here, I keep thinking about when I was a 
single mom with one-, three- and five-year-old children. My 
children's father had abandoned us. He was nuts for leaving me, 
no offense. I mean, you know, he had to leave.
    Mr. Bishop. The chairwoman will be available to discuss 
this.
    Chairwoman Woolsey. He was emotionally ill and wouldn't get 
help. All right, so I have these three children that I am 
responsible for. So, of course, I go to work. I mean, with all 
that was going on in our life, the worst part of it was that, 
in the first 12 months, I had 13 different child care 
situations. One-, three- and five-year-old children, the effect 
on them had to be horrendous.
    I went to work for the same people I ended up being the 
human resources manager for when they left and started a start-
up technology company, and we grew from 12 people to over 800. 
You can imagine that our human resources policies were a lot 
like KPMG. And this was 35 years ago.
    So there is no question, and I watch this young company 
grow with good policies, and then I watched them be taken over 
by a huge corporation who walked in and took away all my 
policies. Then I watched me leave, of course. I wasn't going to 
sit around for that.
    And I find myself on this committee as the Chair of the 
Workforce Protections Subcommittee after 20 years of human 
resources work and professionalism and knowing absolutely that 
my job was to take care of the employees like you do, Ms. 
Wankoff. I mean, I am so proud to know you and to know your 
company.
    I can say to you as the chairwoman of this committee, it is 
absolutely clear we are not doing enough, and that we will do 
better. I can promise that because I know the sense of my 
colleagues, Mr. Bishop, George Miller, who runs the big 
committee. We know that the United States of America is going 
to be measured on how we take care of those most in need, and 
we are going to make it happen.
    I thank you for being here today. You have been 
magnificent. I wish we had a film of you and we can take you 
all over the country. This has been a great, great panel. Be 
prepared to be invited back down to D.C. for something. If you 
can possibly do it, we would sure want to have you and hear you 
again.
    Good luck, Ms. Condos. Good luck, Mr. Blekas. You guys are 
really facing hard stuff, but I don't want you to be alone in 
this. You aren't with your family and your friends, but know 
that some of us get the bigger picture. We will be there. I 
promise. Thank you very much.
    And thank you again.
    Mr. Bishop. If I may, I certainly want to thank you, 
Chairwoman Woolsey, as I said, for this hearing but, much more 
importantly, for your leadership on this issue and so many 
other issues that have important impact on the lives of the 
people who keep this country working. And Mr. Blekas talked 
about those who are looking for their piece of the American 
dream. Your leadership is inspirational, and I thank you for 
that.
    And I want to thank our panel for testifying before us 
today. And I want to let you know that, as a Congress, we are 
determined to find answers to some of the problems that are the 
most taxing for the working families of our country. This is 
one of them. It will not come quickly or easily, but I am 
confident it will come.
    Thank you all very, very much.
    Chairwoman Woolsey. Thank you.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within 14 days.
    [Additional submission from Mr. Bishop follows:]

                           Office of the President,
                The City of New York, Borough of Manhattan,
                                        New York, NY, June 9, 2008.
    Congressman Bishop, members of the House of Representatives 
Committee on Education and the Labor's Committee on Workforce 
Protections Subcommittee, thank you for the opportunity to comment how 
we in government can create and promote work/life balance for employees 
within our own municipalities and across the country.
    As Manhattan Borough President I hear from New York City residents 
about the need for a paid family leave policy that would allow working 
adults to care for their families during and following life-changing 
events. As a result, my office has explored ways in which New York City 
and New York State can make taking leave a truly affordable option for 
workers and their families--we hosted focus groups for employees and 
employers on their need for leave and the obstacles that keep them from 
providing paid leave, respectively; we released a report recommending 
ways for the city and state governments to promote work/family balance; 
we held a forum on paid leave at which New Jersey Labor Commissioner 
David Socolow talked about how New Jersey passed their paid leave 
legislation.
    Through these efforts it has become increasingly clear to me that 
we in government cannot be apathetic in our approach to implementing 
critically needed paid leave policies. Paid family leave is a human 
issue and an economic issue--it cuts across all lines and unites people 
of every political stripe--employees need and should have paid leave. 
Young men and women starting their careers and starting their families 
need paid time off from work following the birth or adoption of a child 
to help balance those often competing demands. At the same time, people 
are living longer. New York City has 2 million seniors whose working 
children and grandchildren are likely be called upon to care for them. 
These New Yorkers also desperately need paid leave.
    Many employers who recognize the need for and benefits of paid 
family leave have found that offering paid leave is a boon to their 
business. Employees with paid leave are often more committed to their 
employers, which in turn positively impacts their business' bottom line 
by reducing turnover and increasing retention rates.
    However, small businesses, which are important to the city's 
economy and create most of our new jobs, told my office during a focus 
group that while they want to provide paid leave, they cannot afford 
it. Here is one place where the government must step in by implementing 
a paid leave policy that would support these small businesses while 
providing the financial safety net that employees need to take time 
off.
    In the absence of a federal requirement for paid leave, local 
governments are taking the lead. New Jersey, California, and Washington 
State all require some form of paid family leave--funded by employee 
contributions to an expanded Temporary Disability Insurance. The states 
with paid family leave did not have to recreate the wheel--they worked 
within the existing confines of the Federal Medical Leave Act and 
simply instituted a method for providing some level of pay for those 
that take leave. It's an important first step that raises the bar for 
other states, but a piecemeal approach to paid leave policy is 
inadequate.
    Just like New York's fear of being left behind by New Jersey--fear 
that will hopefully prompt the legislature to finally take action on 
our paid family leave legislation--the United States risks being left 
behind economically and competitively by the European Union and the 
many countries with family friendly work policies. One look across the 
Atlantic is enough to show us how far we have to go to adequately 
support American families. And if we do not implement paid leave 
policies nationwide, we are going to wake up one day and see that we 
have been left behind.
    Paid family leave is about taking care of ourselves and our loved 
ones. It is about people making decisions about where they are going to 
work and raise their families. It is about having a competitive economy 
and the ability to retain the best workforce. And it is the right thing 
to do.
            Thank you.
                                         Scott M. Stringer,
                                                 Borough President.
                                 ______
                                 
    Without objection, this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
